HHS/OIG, Audit -"Review of Cardiac Rehabilitation Services at Spencer Municipal Hospital, Spencer, Iowa,"(A-07-03-00158)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Cardiac Rehabilitation Services at Spencer Municipal Hospital, Spencer, Iowa," (A-07-03-00158)
January 30, 2004
Complete
Text of Report is available in PDF format (292 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether:  (1) Spencer Municipal Hospital's (Spencer) policies
and procedures reflected Medicare cardiac rehabilitation coverage requirements for direct physician supervision, incident
to services, and Medicare covered diagnoses; and (2) payments to Spencer for outpatient cardiac rehabilitation services
provided to Medicare beneficiaries during Calendar Year 2001 were for Medicare covered diagnoses, were supported by adequate
documentation, and were otherwise allowable for reimbursement.  Physician involvement in the outpatient cardiac
rehabilitation program at Spencer needs to be better identified.  Spencer did not designate a physician to directly
supervise the services provided by its cardiac rehabilitation staff.  Also, contrary to current Medicare requirements,
we could not identify the physician professional services to which the cardiac rehabilitation services were provided incident
to.  In addition, our review showed physicians signing referrals after the
patient started rehabilitation and not signing off on approvals for the discharge of their patients from the cardiac
rehabilitation program.  Concerning the reported diagnoses and documentation,
we determined that Medicare paid $4,026 for services for 16 beneficiaries with a diagnosis of stable angina pectoris.  The
diagnosis may not have been supported in the medical records.